Semi-Annual Report to Congress
Skip Navigation.
NARA
Blogs
Bookmark/Share
Contact Us
Search
Office of the Inspector General (OIG)
Home >
OIG >
Reports to Congress >Semi-Annual Report to Congress
OIG Reports
Reports and Managagement Letters
FY 2014
FY 2013
FY 2012
FY 2011
FY 2010
FY 2009
FY 2008
FY 2007
FY 2006
Semi-annual Reports to Congress
Annual Audit Plan
FAIR Act Report
Peer Review Reports
OIG Hotline
OIG'semi-Annual Report to Congress:
October 1, 2004 - March 31, 2005
Table of Contents
Foreword
Executive Summary
Introduction
Office of Inspector General Activities
Audits
Investigations
Management Assistance
Top Ten Management Challenges
Reporting Requirements
Foreword
On February 16, 2005, Allen Weinstein was sworn in as the ninth Archivist of the United States.  Thus, the majority of the work defined in this semiannual report was performed prior to his arrival.  Clearly, the work the Office of Inspector General (OIG) accomplished in this reporting period ties in well with the themes that the new Archivist has articulated both publicly and privately.  The Archivist envisions a National Archives that uses its budget in a cost-effective and efficient manner in order to accomplish our mission, while providing the means to move forward with a number of bold initiatives.  From our initial meeting, the Archivist has emphasized to me that he  values highly  the role of the OIG and will be strongly supportive of this office.
In this reporting period, the work performed by our special agents has resulted in the successful prosecution of two major cases.  One case focused on a former National Security Advisor who removed Federal records from NARA that he viewed in preparation for testimony before the 9/11 Commission.  The second case involved a researcher who admitted to purloining over 100 records of notable historic Civil War figures such as Generals Custer, Lee, and Armistead.
Our auditors have continued to support this agency in its efforts to improve financial accountability.  They have also identified opportunities to improve information technology (IT) security and ensure that all IT investments are undertaken in compliance with requirements defined in the Clinger Cohen Act of 1996.
I would like to take this opportunity to formally welcome the new Archivist to NARA.  We look forward to the opportunity to provide him and all of our stakeholders with optimal service in future reporting periods.
Paul Brachfeld
Inspector General
Top of Page
Executive Summary
This is the 33rd Semiannual Report to the Congress summarizing the activities and accomplishments of the National Archives and Records Administration (NARA) Office of Inspector General (OIG). A summary of NARA's top challenges is provided under the section titled "Top Ten Management Challenges." The highlights of our major functions are summarized below.
Audits
In this reporting period, the Audit Division continued to examine the integrity of NARA's financial information and security of Information Technology (IT) systems and programs.  This work had positive impact upon agency operations and related controls in these critical areas. We also extensively audited and evaluated NARA programs, functions, and contract issues.  Recommendations directed to NARA officials will, upon adoption, translate into reduced risk for the agency and increased levels of security and control over NARA's financial assets, programs, and operations.
We issued the following audit reports during the reporting period:
Review of NARA's Information Technology Investment Management Decide Process Accomplished for the Operating System Software Upgrade Project.  This audit assessed the methodology and decision-making process used by NARA's personnel in planning the upgrade of NARA's critical computer network operating system and electronic mail software.  Based on our analysis, the decision to upgrade was made without adherence to NARA requirements.  The OIG requested, but management did not provide, evidence to demonstrate that cognizant officials approved the upgrade project prior to the commitment of significant resources.  In fact, the upgrade was well underway and scheduled for completion when the project, funded at a level of $3.5 million, was approved by the former Archivist in October 2004.  Thus, NARA officials circumvented the very process designed to ensure that NARA'selects the best mix of IT investments for supporting NARA's strategic goals.  Additionally, we found that the Analysis of Alternatives conducted for the project was inadequate. In our opinion, NARA officials did not analyze the best alternatives available, and the analysis never disclosed the fact, widely known in the IT community, that the option chosen was experiencing dwindling support from third-party software developers and was planning to phase out its proprietary operating system.
(Audit Report #05-10, dated March 30, 2005.)
Audit of NARA's Intrusion Detection System (IDS).  Our review revealed that, while management has selected one of the top IDS products and fully deployed it on the NARANet, the IDS must continue to mature in its deployment and management.  Responsible employees and contractors have not yet developed baselines of system and or application activity; implemented host-based sensors on critical servers; attempted to restore the application and data using backup procedures; physically secured the IDS servers; finalized remediation procedures for IDS alerts; and dedicated necessary resources to resolve open IDS alerts.  Developing procedures and metrics to ensure that IDS alerts are remediated regularly and effectively is critical to ensuring that NARA's IT resources are not exposed to known vulnerabilities.  Further, expanding the IDS strategy to include host-based sensors is the logical next step in the system lifecycle approach to IT.
(Audit Report #05-09, dated April 1, 2005.)
Review of NARA's Acquisition of Storage Management Software.  Our review disclosed that NARA'spent $123,070 for storage management software that it has never used, including $93,855 for acquisition costs, licensing fees, and maintenance, and $29,215 for training.  In our opinion, this occurred because NARA management did not comply with the requirements of NARA 801, Review of Information Technology Investments.  Specifically, management did not prepare required documentation for the project, including (a) an IT project proposal, (b) an assessment of project risks, (c) a benefit/cost analysis, (d) an estimate of required resources or projected cost data, and (e) quarterly progress reports.  In addition, management officials could not provide an analysis of alternatives showing that the selected software was the best solution for meeting NARA's storage management needs. If NARA implements the software, additional costs may be incurred for training employees to install and use the software because only one contractor employee who attended the original training still works at NARA.  We also found that the contracting officer's technical representative did not adequately monitor the software implementation.
(Audit Report #05-01, dated March 9, 2005.)
Review of the Management and Operation of NARA's Help Desk.  Our audit found several areas of possible improvement in NARA's management and contractor operation of NARA's Help Desk.  Specifically, our review revealed that the contractor's database for tracking help desk response and performance information was not accurate; the contractor was not calculating resolution rate in accordance with the performance parameters identified in the contract; a process for collecting customer satisfaction information was not implemented; revised procedures for calculating a measure of contractor performance were not documented; and user accounts for the database were not deleted in a timely manner for those no longer requiring access privileges.
(Audit Report #05-05, dated February 23, 2005.)
Audit of NARA's Fiscal Year (FY) 2004 Financial Statements.  Clifton Gunderson LLP (CG), a public accounting firm, audited NARA's consolidated balance sheet as of September 30, 2004, and the related consolidated statements of net cost, changes in net position, financing, and combined statement of budgetary resources for the year then ended.  NARA received a qualified opinion.  The auditors qualified the opinion for the effects of adjustments, if any, as might have been necessary had the auditors been able to perform adequate audit procedures on property, plant, and equipment; recoveries of prior year obligations; direct obligations incurred; and undelivered orders.  NARA had four material internal control weaknesses and three reportable conditions.  It also had three substantial noncompliances with the Federal Financial Management Improvement Act.
(Audit Report #05-02, dated November 29, 2004.)
Evaluation of NARA's Processes for Handling Personal Information Collected From the Public.  Our review revealed that, while the protections in place were largely in compliance with the implementing regulations of the Privacy Act of 1974 at five of eight sites visited, circumstances existed at three sites that were ripe for identity theft.  At these locations, opportunities existed for unauthorized persons to gain access to driver's license numbers, social security numbers, and credit card numbers and expiration dates.  (Audit Report #05-06)
Audit of National Archives Trust Representational Fund.  Overall, the representational fund is operating according to established laws and regulations.  However, during our audit of FYs 2003 and 2004 documentation, we found that four transactions were improperly recorded to the representational fund; reports presented to the Trust Fund Board did not agree with the accounting records (i.e., actual expenditures exceeded the budget); and two transactions were not supported by an approved authorization for expenditures request.  (Audit Report #05-07, dated March 18, 2005.)
Evaluation of NARA's FY 2004 Management Control Program.  We found that NARA's management control program complied with the intentions of the Financial Managers' Financial Integrity Act (FMFIA) and Office of Management and Budget (OMB) Circular A-123, Management Accountability and Control.  Pursuant to Section 4 of the FMFIA, NARA's financial subsystems generally conform to the objectives detailed in OMB Circular A-127, Financial Management Systems.  The former Archivist reported no new material weaknesses and continued to report computer security and collections security as material weaknesses.
(Audit Memorandum #05-08, dated February 10, 2005.)
Investigations
During this reporting period, the Office of Investigations opened 9 investigations, closed 8 investigations, and continued work on 18 investigations.  The Office of Investigations received 205 hotline complaints, which resulted in 6 investigations, 123 referrals to other agencies, and 53 complaints closed to file.  There are 44 complaints that remain open.
The investigative staff completed the following investigations:
Theft of Presidential Records/Classified Dcouments
Theft of NARA Historical Documents
Bomb Threat
Removal of Internal Revenue Service Records for Destruction
Top of Page
Management Assistance
In our management assistance activities this reporting period, we
provided ongoing analysis and assistance to NARA contract management personnel on a proposal for stack lighting in the National Archives Building that resulted in an $800,000 savings to the Government
commented that the NARA Notice titled "Draft of Protecting Federal Records and Other Documentary Materials" needed to include an additional recommendation.  We recommended that when there is an unauthorized removal of records at an agency outside of NARA, that agency'should contact its own OIG, which is authorized to conduct investigations into such matters pursuant to the IG Act
commented that the NARA Notice titled "Draft Directive-NARA 1502, Standard Operating Procedures for Processing Proposals for Affiliation" should include protocols or methodology for the NARA Affiliated Archives Review Team.  We also recommended that the directive include language identifying the OIG's authority to conduct audits and investigations of an affiliated archive.
commented that the NARA Notice titled "Draft Records Management Service Components Report" should ensure that security is stressed in every component and for every functional requirement.
commented that the revised draft of NARA 701 titled "Public Transit Subsidy Program and Qualified Transportation Fringe Benefits" should include a statement that employees must report suspected criminal acts, fraud, waste, abuse, and gross mismanagement to the OIG.
Top of Page
Introduction
About the National Archives and Records Administration
Mission
The National Archives and Records Administration ensures, for the Citizen and the Public Servant, for the President and the Congress and the Courts, ready access to essential evidence.
Background
NARA, by preserving the nation's documentary history, serves as a public trust on which our democracy depends.  It enables citizens to inspect for themselves the record of what the Government has done.  It enables officials and agencies to review their actions and helps citizens hold them accountable. It ensures continuing access to essential evidence that documents the rights of American citizens, the actions of Federal officials, and the national experience.
Federal records reflect and document America's development over more than 200 years and are great in number, diverse in character, and rich in information. NARA's archival holdings amount to 3.1 million cubic feet of records.  These holdings include architectural/engineering drawings, maps, and charts; moving images and sound recordings; photographic images; 540,125 artifact items; and 5.6 billion logical data records.
NARA involves millions of people in its public programs, which include exhibitions, tours, educational programs, film series, and genealogical workshops. In FY 2004, NARA hosted 2.3 million museum visitors and 223,519 public program attendees, while responding to 1.1 million written requests from the public.  In addition, NARA responded to 10.8 million Federal agency reference requests, more than 29,874 Federal agency requests for appointments to review records, and provided records management training to 2,997 individuals.  NARA publishes the Federal Register and other legal and reference documents that form a vital link between the Federal Government and those affected by its regulations and actions. Through the National Historical Publications and Records Commission, NARA helps to preserve and publish non-Federal historical documents that also constitute an important part of our national heritage. NARA also administers the Nixon Presidential Materials Project, and 11 Presidential libraries that preserve the papers and other historical materials of all past Presidents since Herbert Hoover.
Resources
In 2005, NARA was appropriated an annual budget of approximately $321 million and 2,870 Full-time
Equivalents (FTEs), which included appropriations of $266 million for operations, $35 million for
the Electronic Records Archive (ERA) program, $13 million for repairs and restorations of facilities,
and $5 million for grants. NARA operations are spread throughout 34 facilities nationwide.
About the Office of Inspector General (OIG)
The OIG Mission
The OIG's mission is to ensure that NARA provides the American people with ready access to essential evidence by providing high-quality, objective audits and investigations, and serving as an independent, internal advocate for economy, efficiency, and effectiveness.
Background
The Inspector General Act of 1978, as amended, established the OIG's independent role and general responsibilities. The Inspector General reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA's performance, makes recommendations for improvements, and follows up to ensure economical, efficient, and effective operations and compliance with laws, policies, and regulations. In particular, the OIG
assesses the effectiveness, efficiency, and economy of NARA programs and operations
recommends improvements in policies and procedures to enhance operations and correct deficiencies
recommends cost savings through greater efficiency and economy of operations, alternative use of resources, and collection actions
investigates and recommends legal and management actions to correct fraud, waste, abuse, or mismanagement
Resources
The FY 2005 OIG budget is approximately $1.8 million for operations. At the beginning of FY 2005, another FTE was added to the OIG.  The OIG now has 15 FTEs. During the period, the Assistant Inspector General for Investigations (AIGI) position was filled.  At full staffing, in addition to the Inspector General and support staff, 8 FTEs are devoted to audits, 3 to investigations, and 1 as counsel to the Inspector General.  Currently, the OIG is in the process of hiring an IT auditor to fill the newly created FTE position. The OIG is seeking additional audit and investigative resources to support the work of this office as defined in the current and FY 2007 budget submissions to the Archivist.
Top of Page
Office of Inspector General Activities
Involvement in the Inspector General Community
President's Counsel on Integrity and Efficiency (PCIE) and Executive Counsel on Integrity and Efficiency (ECIE) Legislation Committee
The IG served as one of two ECIE representatives to the Legislation Committee.  The Legislation Committee assists the IG community in effectively carry out its duties as specified in Executive Order 12085.  In particular, these responsibilities are to identify, review, and discuss areas of weakness and vulnerability in Federal programs; conduct operations to uncover fraud, waste, and abuse; and develop plans for coordinated, Government-wide activities that address these problems and promote economy and efficiency in Federal programs and operations.
Association of Directors of Investigation Conference
The IG and the new Assistant Inspector General for Investigations (AIGI) attended the Association of Directors of Investigations (ADI) Conference hosted by the National Aeronautics and Space Administration (NASA) OIG.  The conference was held from March 15 to 17, 2005.  Focal topics included the integration of OIG audit and investigative activity and strategies for addressing high technology crime.
Council of Counsels to Inspectors General (CCIG)
The OIG legal counsel participated in meetings of the CCIG and communicated regularly with fellow members.  Multiple topics were raised, discussed, and addressed, including pending legislation amending the IG Act, Privacy Act issues (particularly as they relate to the Consolidated Appropriations Act), Freedom of Information Act issues (particularly as they relate to the Openness Promotes Effectiveness in our National Government Act), and counsel training opportunities.
Federal Audit Executive Council (FAEC)
President's Counsel on Integrity and Efficiency (PCIE) and Executive Counsel on Integrity and Efficiency (ECIE) Legislation Committee
Review of Proposed Legislation and Regulations
We reviewed the following regulation during the period:
We continued our review of the proposed Improving Government Accountability Act to amend the IG Act of 1978.  Particularly, in response to congressional inquiries on the proposed bill, we drafted proposed statutory language as it relates to the grade level of Designated Federal Entity Inspectors General.  The previous draft was deemed too general, and more specificity was requested.  We proposed that "Designated Federal Entity Inspectors General shall be staffed at Level IV of the Senior Executive Service or at a level comparable to senior staff members of the respective Designated Federal Entity, such as General Counsel, Departmental Director, Chief Financial Officer, Chief Information Officer, or Deputy."
We jointly opposed, with NARA's Office of General Counsel, provisions in the Openness Promotes Effectiveness in our National Government Act in response to a request from the Office of Management and Budget.  This proposal may have a significant impact on OIGs. It precludes the assertion of any 5 U.S.C. § 552(b) exemptions to the Freedom of Information Act when an agency fails to respond to a request within 20 days absent clear and convincing evidence of good cause for failure to comply with the time limits.
Other Activities
FPeer Review of the NARA OIG by Securities and Exchange Commission (SEC) OIG
During the period, the SEC OIG reviewed the system of quality control for the audit function of the NARA OIG in effect for the year ended September 30, 2004.  The review was conducted in conformity with standards and guidelines established by the PCIE and included tests of compliance with the OIG's system of quality control.
In performing the review, consideration was given to the PCIE's policy statement on quality control and external reviews, dated March 2, 2004.  That statement indicates that an OIG's quality control policies and procedures should be appropriately comprehensive and suitably designed to provide reasonable assurance that the objectives of quality control will be met.  It also recognizes that the nature, extent, and formality of an OIG's system of quality control depends on various factors such as the size of the OIG, the location of its offices, the nature of the work, and its organizational structure.
The SEC OIG concluded that, in their opinion, the NARA OIG's system of quality control for the audit function the year ended September 30, 2004, met the PCIE's quality standards and was being followed to provide reasonable assurance of material compliance with professional auditing standards in the conduct of audits.  Therefore, the SEC OIG issued the NARA OIG an "unqualified opinion" on the system of audit quality control.
IG Addresses the National Archives Assembly and NARA Regional Administrators
The IG spoke to the National Archives Assembly on October 25, 2004, and at the NARA Regional Administrators Conference on November 17, 2004.  These speeches focused on the risk to NARA holdings from persons who purloin NARA holdings for their own greed or selfishness.  The IG sought to educate and thus enlist the support of these audiences in the effort to combat this threat.
PCIE and ECIE Awards Ceremony
On October 27, 2004, the IG joined with the entire IG community to honor employees whose performance has earned them meritorious distinction from  their peers.  One NARA OIG employee so honored was Special Agent (SA) Kelly Maltagliati.  SA Maltagliati headed the investigation that resulted in the recovery of numerous historic records stolen from NARA and ultimately the conviction of the subject responsible.
Top of Page
Audits
Overview
This period, we issued
9 final audit reports
1 audit memorandum
We completed fieldwork on the following assignment:
an evaluation of NARA's preservation program to determine whether established controls provide adequate assurance that archival records needing preservation are identified and serviced in a timely manner
an audit of the NARA travel program to determine if the program is operating in accordance with applicable laws, regulations, and agency policies and procedures
an audit of the NARA loan program to assess the compliance with policies and procedures and ensure that items are adequately safeguarded when loaned
an audit of high-valued items to determine whether management controls are adequate to properly safeguard specially protected records and artifacts stored in secured stacks, vaults, and safes.
We also continued work on the following assignments:
an evaluation of NARA's network to determine if its operation and management effectively and efficiently satisfies the agency's communication needs
an audit of NARA's perimeter security to determine whether the controls surrounding the boundary of the NARA computer network provide reasonable protection from external intruders.
Audit Summaries
Review of NARA's Information Technology Investment Management Decide Process Accomplished for the Operating System Software Upgrade Project
The overall objective of our review was to determine if NARA's information technology (IT) Investment Management Decide Process was used to plan, and approve, an operating system software upgrade project.  Specifically, we sought to determine whether (1) NARA officials prepared an IT Project Proposal and the Investment Review Team reviewed and approved the upgrade project; (2) the upgrade project risks were identified; and (3) alternatives for upgrading the computer network operating system were adequately analyzed.
Our review disclosed that the "go" decision to upgrade the NARA operating system software was made without comprehensive adherence to the requirements of NARA Directive 801.  The OIG requested, but management did not provide, evidence to demonstrate that cognizant officials approved the upgrade project prior to the commitment of significant resources. In fact, the upgrade was well underway and scheduled for completion in April 2005 when the project, funded at a level of $3.5 million, was approved by the Archivist in October 2004.  Thus, in this case, NARA officials circumvented the very process designed to ensure that NARA'selects the best mix of IT investments for supporting NARA's strategic goals.
We also found that an Analysis of Alternatives conducted for the software upgrade project was inadequate.  Four alternative solutions were analyzed:  (1) maintain the status quo; (2) acquire and migrate to Windows/Exchange Server 2000; (3) upgrade to Novell Netware 6.0/Groupwise 6.5; and (4) upgrade to Novell Netware 6.5/Groupwise 6.5.  In our opinion, NARA officials did not analyze the best alternatives available, and the analysis never disclosed the fact, widely known in the IT community, that the option selected was experiencing dwindling support from third-party software developers and was planning to phase out its proprietary operating system.
We recommended that the Assistant Archivist for Human Resources and Information Services (NH) require meeting minutes to be prepared for IT project review meetings attended by the Investment Review Team and other senior Managers'; revise NARA 801, Review of Information Technology Investments, to require that a proposed IT project be approved by the Chief Information Officer and the Archivist before any project development or acquisition effort begins; and provide training to NH Project Managers'related to the preparation of a satisfactory Analysis of Alternatives.
Management concurred with our findings and recommendations and is taking corrective action to address the deficiencies discussed in the report (Audit Report #05-10, dated March 30, 2005).
Audit of the NARA's Intrusion Detection System
This audit was performed as a direct result of a previous audit report, "Audit of the NARA'systems Security Program", report number 01-05, issued in 2001, by the OIG, which reported that NARA had not installed an intrusion detection system (IDS) to protect highly sensitive and visible holdings.  In response to the OIG's concerns, the Archivist directed the Chief Information Officer (CIO) to address this vulnerability.  During fiscal year 2002, NARA implemented an IDS that monitors both internal and external attempts to access NARA's network (NARANet).  The overall objective of this audit was to evaluate the current IDS and determine whether adequate controls were in place to safeguard NARA's information system network and assets.
Our audit of the IDS revealed that while management has selected one of the top IDS products and fully deployed it on NARANet, the IDS must continue to mature in its deployment and management.  Responsible employees and contractors have not yet developed baselines of system and or application activity; implemented host-based sensors on critical servers; attempted to restore the application and data using backup procedures; physically secured the IDS servers; finalized the remediation procedures for IDS alerts; and dedicated the necessary resources to resolve the open IDS alerts.  Developing procedures and metrics to ensure that IDS alerts are remediated on a timely basis and effectively is critical to ensuring that NARA's IT resources are not exposed to known vulnerabilities.  Further, expanding the IDS strategy to include host-based sensors is the logical next step in the system lifecycle approach to IT.
We recommended that management (a)  ensure that baselines are created for each major system and significant applications; (b) prepare a detailed pilot program designed to strategically determine suitable placement for host-based sensors on NARANet's critical servers and/or network segments; (c) ensure that the backups performed are comprehensive enough to readily permit recovery, in the event of a disaster, of the IDS application data; that backup tapes are stored in a secure off-site location; that hardware is available in the event a restoration is necessary and for ongoing testing purposes, and that an adequate backup restoration test is conducted to ensure recovery of the application and database at regularly occurring intervals; (d) assign sufficient resources to resolve the open IDS alerts; (e) finalize standard operating procedures (SOP) including policies, procedures, and metrics for remediation of the IDS alerts; and (f) ensure that the IDS administrator updates the NARA IDS SOP so that it is consistent with the NARA IT Security Handbook, Technical Controls.
Management concurred with our findings and recommendations and initiated corrective action prior to the issuance of the final report (Audit Report #05-09, dated April 1, 2005).
Review of NARA's Acquisition of Storage Management Software
NARA purchased software to provide a disaster recovery solution for the archiving of network data to an off-site location.  We reviewed this purchase to determine if NARA's purchase and implementation of the software was accomplished in accordance with NARA policy.  Specifically, we determined whether (a) the agency planned the project in accordance with the guidance as specified in NARA Directive 801, Review of Information Technology Investments, and (b) IT personnel implemented the software in a timely and cost-effective manner.
Our review disclosed that NARA'spent $123,070 for storage management software that it has never utilized, including $93,855 for acquisition costs, licensing fees, and maintenance, and $29,215 for training.  In our opinion, this occurred because NARA management did not comply with the requirements of NARA 801.  Specifically, management did not prepare required documentation for the project, including (a) an IT project proposal, (b) an assessment of project risks, (c) a benefit/cost analysis, (d) an estimate of required resources, or projected cost data, and (e) quarterly progress reports.  In addition, management officials could not provide an analysis of alternatives showing that the software was the best solution for meeting NARA's storage management needs. If NARA implements the software, additional costs may be incurred for training employees to install and use the software because only one contractor employee who attended the original training session still works at NARA.  We also found that the contracting officer's technical representative did not adequately monitor software implementation.
We recommended that management officials ensure that all IT investments are planned and monitored in accordance with the guidance in NARA 801, Review of Information Technology Investments, including those projects that are initiated by a contractor.
Management agreed with our finding and recommendation and agreed to take corrective action (Audit Report #05-01, dated March 9, 2005).
Review of the Management and Operation of NARA's Help Desk
We initiated an audit of the Help Desk operation to determine if the contractor was providing Help Desk services that satisfy contract requirements and meet user expectations.
Our review identified several areas of possible improvements in the management and operation of NARA's Help Desk.  Specifically, our review noted that the contractor (a) maintained inaccurate information in its database; (b) did not calculate resolution rate in accordance with the performance parameters identified in the contract; (c) did not implement a process for collecting customer satisfaction information; and (d) did not document revised procedures for calculating a measure of contractor performance.  Additionally, we identified that user accounts for the database were not deleted in a timely manner for those no longer requiring access privileges.
This condition represents an internal control weakness that could impinge on the integrity of the information maintained in the database.
We recommended that management (a) take measures to ensure that the contractor institute appropriate internal controls to validate information entered and maintained in the database; (b) routinely review the information contained in the database to ensure its accuracy and that the information entered adheres to Help Desk policies and procedures; (c) require the contractor to either calculate and report the resolution rate in accordance with the contract or request that the Acquisition Services Division modify the contract to reflect how the contractor is currently calculating and reporting the Help Desk ticket resolution rate; (d) ensure that the contractor prepares a customer survey form to be used for gauging customer satisfaction, including issuing guidance and procedures concerning how the survey will be administered, how data will be collected, and how the data will be used in evaluating contractor performance; and (e) ensure that guidance is developed for documenting the policies and procedures that will be used to identify, agree upon, and remove those Help Desk tickets that are deemed outside of the contractor's control and for the methodology to be used in calculating the contractor's call resolution rate service level under the revised process.
Management concurred with our findings and recommendations and agreed to initiate corrective action (Audit Report #05-05, dated February 23, 2005).
Audit of NARA's FY 2004 Financial Statements
Clifton Gunderson, LLP (CG), an independent public accounting firm, examined and reported on NARA's consolidated balance sheet as of September 30, 2004, and the related consolidated statement of net cost, changes in net position, financing, and the combined statement of budgetary resources for the year then ended.
CG found that except for the effects of such adjustments, if any, as might have been necessary had they been able to perform adequate audit procedures on property, plant, and equipment, recoveries of prior year obligations, direct obligations incurred, and undelivered orders, the FY 2004 financial statements present fairly, in all material respects, NARA's financial position as of September 30, 2004.
CG reported certain matters involving internal control and its operations that were considered to be reportable conditions, four of which were deemed material weaknesses. The material weaknesses were related to the financial reporting process, the accounting for property, plant and equipment, investments in non-Federal securities, and information technology.  The reportable conditions were related to weaknesses in payroll, the cost allocation methodology, and the Federal Managers' Financial Integrity Act compliance and reporting.
Management concurred with the findings and recommendations in the report and agreed to initiate corrective action (Audit Report #05-02, dated November 29, 2004).
Evaluation of NARA's Processes for Handling Personal Information Collected from the Public
NARA has the responsibility to safeguard researchers' personal information provided when one uses NARA's services. Researchers, private citizens from the United States and foreign countries, and people hired to research records, are required to register to gain access to archival holdings. The personal data collected during this registration process can include a person's address, telephone number, driver's license number, and social security number. Such information is collected on paper as well as in electronic formats. When researchers pay fees for certain services, additional information collected can include both bank account and credit card numbers.
We sought to determine how NARA handles personal information it collects on selected information forms and to evaluate the adequacy of the protections given this information.
The OIG reviewed controls at eight locations and found weaknesses at three.  These weaknesses included leaving personal information in the open, and not securing file cabinets containing personal information.  Implementation of the Privacy Act at NARA is governed by Title 36, Chapter 12, of the Code of Federal Regulations (CFR), which states in part that "[t]he system manager ensures that appropriate administrative, technical, and physical safeguards are established to ensure the security and confidentiality of records."  When records are not adequately safeguarded, the risks increase for identity theft.  In each case where weaknesses, were found, the appropriate system manager subsequently remedied the weakness bringing the unit into substantial compliance with the CFR.
We recommended that all NARA offices review their operations and ensure that personal identifying information is adequately secured and protected. The reviews should include an examination of (1) researchers’ letters and e-mails; (2) researchers’ application forms; (3) logbooks books with researchers’ financial and personal information; and (4) any other storage media that collects personal information of NARA researchers (Audit Report #05-06, dated March 14, 2005).
Audit of the National Archives Trust Representational Fund
The audit sought to ensure the propriety of the representational fund and to determine whether the fund is operating in compliance with pertinent laws and regulations.  Specifically, we wanted to determine if the representational fund expenditures were appropriate, if adequate controls were in place to account for the monies received and disbursed, if the annual representational fund budget was calculated in accordance with policy, and if the actual expenses exceed the annual budget.
To accomplish our objectives, we reviewed the pertinent policies and procedures, interviewed staff, and performed a test of controls surrounding the representational fund.  We noted that the accounting and the report preparation could be improved.  We also noted possible improvement in maintaining sufficient support documentation and obtaining the proper authorization.
We recommended that the Assistant Archivist for Administrative Services direct the National Archives Trust Fund (NATF) Secretary to ensure that the financial reports are reviewed monthly and that all transactions are properly classified and accounted for in order to produce reliable financial reports; ensure that proper and clear supporting documentation is maintained; and ensure that all financial reports presented to the Board agree with the accounting records (Audit Report #05-07, dated March 18, 2005).
Evaluation of NARA's FY 2004 Management Control Program
Our evaluation sought to determine if there was sufficient evidence that NARA complied with the requirements of the Federal Managers' Financial Integrity Act (FMFIA), OMB Circulars A-123 and A-127, and the NARA Management Control System (NARA 114) to support the Archivist’s  Archivist’s FY 2004 assurance statement to the President.
We found that NARA's assurance statement was adequately supported and that NARA appeared to comply with the intentions of FMFIA and OMB Circular A-123, revised.  Pursuant to Section 4 of the Integrity Act, the financial subsystems of NARA generally conform to the objectives detailed in OMB Circular A-127, revised.  Although three systems (Order Fulfillment Accounting System; Trust Fund and Gift Fund Financial Review, Analysis, and Reporting System; and Records Center Revolving Fund) are not in complete conformance because they fail to meet the financial management system requirements, the non-conformances were not deemed material.  The Archivist reported no new material weaknesses and continued to report computer security and collections security as material weaknesses (Audit Memorandum #05-08, dated February 10, 2005).
Top of Page
Investigations
Investigative Case Summaries
Theft of Presidential Classified Documents
A former National Security Advisor to President Clinton reviewed documents and materials containing classified information of the United States stored at NARA.  On or about September 2, 2003 and October 2, 2003, this former National Security Advisor removed such classified material without authorization with intent to retain the material at an unauthorized location.  On March 31, 2005, an information was filed in the United States District Court for the District of Columbia charging one count of 18 U.S.C. § 1924:  Unauthorized Removal and Retention Of Classified Material a Class A Misdemeanor.
Stolen Presidential Pardon
A concerned citizen in the document community informed the NARA OIG that a particular Presidential pardon was for sale on eBay.  This pardon was verified as being part of a previous theft from a NARA facility by a former NARA employee.  He was earlier convicted of theft of Government records and sentenced to Federal prison.  The pardon was recovered and returned to NARA.
Theft of Document from NARA Library
NARA was notified that a previously classified Navy report was offered for sale by an online auction house.  NARA had documentation to prove this record belonged in the Franklin D. Roosevelt Presidential Library, part of the National Archives.  The document also bore President Roosevelt’s  initials.  The consigner could not provide specific information on this purchase.  The report was recovered and returned to NARA. Leads were found.
Bomb Threat
A bomb threat was called into a NARA facility on the west coast.  The NARA OIG worked jointly with the Federal Protective Service but was unable to develop definitive evidence to prove who made the threatening telephone call.
Removal of Internal Revenue Service Records for Destruction
NARA management advised the OIG that a television station obtained Internal Revenue Service (IRS) tax returns from a paper disposal mill servicing a NARA facility.  The Office of Investigations conducted a joint investigation with the Treasury Inspector General for Tax Administration (TIGTA).  It was determined that NARA followed proper disposal procedures; however, the paper disposal mill did not.  This resulted in the loss of the IRS tax documents.  Prosecution was declined concerning the person who stole the IRS tax documents.
Investigative Case Updates
Theft of NARA Historical Documents
The OIG received information that a NARA historical document was listed for auction on the Internet.  The OIG recovered this document and several other historical documents from the Civil War era. Update:  On March 7, 2005, the subject pled guilty to one count of 18 U.S.C., Section 668: Theft of Major Artwork in the United States District, District of Columbia. Sentencing is scheduled for May 2005.  Also during this reporting period, another document and a clipped signature were recovered.  To date, a total of 42 NARA documents have been recovered.  These documents continue to be sold for significant sums of money.
Child Pornography
In December 2002, a routine audit revealed that several NARA employees were accessing pornographic websites from their NARA-owned computers.  Some of the website addresses accessed indicated the potential presence of child pornography.  A subsequent investigation showed that a NARA employee was viewing child pornography from his NARA workstation. The employee was terminated, and the investigation was worked jointly with the FBI. The subject was indicted and pled guilty to one count of possession of child pornography on his personal computer.  Update: In October 2004, the subject was sentenced to 18 months in prison and put on the sex offender registry.
Significant Internal Investigative Referrals
Suspected Terrorist Activity
In October 2004, an anonymous call was received by Crime Stoppers.  The caller stated that he overheard several Middle Eastern males commenting on blowing up a particular NARA Presidential library.  This information was passed on to the Federal Bureau of Investigations (FBI) who in turn notified library security.   The NARA OIG contacted the FBI.
In response, the local police department posted an officer at the library and museum.  The library also implemented Homeland Security Threat Condition ORANGE procedures.  At a later time, it was determined that the threat could not be substantiated.  This matter was closed.
White Substance
In November 2004, an employee turned over to NARA'security a bag discovered in a NARA facility containing what appeared to be marijuana.  The Metropolitan Police Department and the Federal Protective Service responded and took possession of the suspected marijuana.  This matter was referred to the Office of Investigations.
Threat
In December 2004, NARA's Security Office received notice from NARA management that an employee threatened suicide.  The employee was being terminated for non-performance during his probationary period.  The employee then commented in front of other employees at the NARA facility that he would shoot himself.  The Federal Protective Service and the NARA OIG were alerted, and additional safeguards were considered, as the employee had both threatened suicide and mentioned a weapon.
OIG HOTLINE
The OIG Hotline provides a prompt, effective, and confidential channel for reporting fraud, waste, abuse, and mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline number and letters to the Hotline post office box, we also accept email communication from NARA's internal network or the Internet through the Hotline email system.  Walk-ins are always welcome.
OThe Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct preliminary inquiries on noncriminal matters to determine the proper disposition. Where appropriate, referrals are made to the OIG Audit Staff or to NARA management.
The following table summarizes Hotline activity for this reporting period:
Cases Opened*
6
Referred Outside the OIG
123
No Action Necessary
53
Closed from Last Reporting Period
15
Pending
44
Total Hotline Complaints
205
*Cases included in investigative workload statistics.
Top of Page
Management Assistance
In October 2003, management asked the OIG to perform an audit of a change order proposal submitted by a contractor for correcting electrical and lighting problems in the stacks at the National Archives Building in Washington, DC.  The audit was to determine whether the contractor's proposed costs were reasonable and followed applicable Government regulations.  Our audit questioned $2,000,243 of the total proposed cost of $5,103,119.
Since the issuance of our report in December 2003, the OIG has assisted management in addressing contractor concerns related to the costs questioned.  We met with NARA officials to discuss issues such as excess bonus costs and other unallowable costs that were not in compliance with applicable regulations.  As a result of management and OIG efforts, NARA was able to reduce the proposed cost of this change order to $4,275,000 and save the Government $828,119.
Top Ten Management Challenges
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises independent audits, investigations, and other reviews to promote economy, efficiency, and effectiveness and prevent and detect fraud, waste, and mismanagement.  To fulfill that mission and help NARA achieve its strategic goals, we have aligned our programs to focus on areas that we believe represent the agency’s most significant challenges.  We have identified those areas as NARA’s top ten management challenges.  These challenges are listed below.
1. Electronic Records Archives (ERA)
NARA, in research and development collaboration with national and international partners, is building an Electronic Records Archives (ERA) with the goal of ensuring the preservation of, and access to, Government electronic records.  The pace of technological progress makes formats in which the records are stored obsolete within a few years, threatening to make them inaccessible even if they are preserved intact.
ERA is to be a comprehensive, systematic, and dynamic means of preserving virtually any kind of electronic record, free from dependence on any specific hardware or software.  The ERA system is targeted to make it possible for Federal agencies to transfer any type or format of electronic record to the National Archives so that citizens can locate records of interest and the National Archives can deliver these materials in a usable format.
NARA’s challenge is to build a system that will accommodate historical, current, and future formats of electronic records.  To mitigate the risks associated with development and acquisition of an advanced electronic archival system, Congress directed NARA to reassess the ERA project schedule based on estimates of the amount of work and resources required to complete each task.  Beginning on October 1, 2002, NARA was required to submit to Congress a quarterly report on the status of the project’s schedule, budget, and expenditures as measured against a reported baseline; a prioritization of project risks and their mitigation efforts; and corrective actions taken to manage identified schedule slippage, cost overruns, or quality problems that might occur.  By 2007, NARA plans to have initial operating capability for ERA with incremental improvements that will eventually result in full system capability.   The challenge will be to deliver and maintain a functional ERA system that will preserve electronic records for as long as needed.
2. Electronic Records Management (ERM)
NARA directs one of 24 Government-wide initiatives, the Electronic Records Management (ERM) initiative.  The ERM initiative will provide guidance to agencies in managing and transferring to NARA, in an increasing variety of data types and formats, their permanent electronic records.  For many years, Federal records were created on paper and stored in files and boxes with NARA.  Now, electronic records are created by Government agencies at an astounding rate, challenging NARA to find ways to manage and preserve them.  In 2002, NARA became a key player in E-Government and managing partner for the E-Government ERM initiative.  E-Government is part of President Bush’s  management agenda aimed at making it easier for citizens to obtain high-quality service from the Federal Government while reducing the cost of delivering those services.  During 2002, NARA enlisted partner agencies, developed a detailed plan for accomplishing its objectives, and issued the first guidance on transferring email records to NARA.
NARA and its Government partners are challenged with trying to figure out how to manage electronic records in an electronic manner in order to make ERM and E-government work more effectively.
3. Improving Records Management
NARA's mission is to ensure that Federal officials and the American public have ready access to essential evidence.  One way NARA addresses its mission is by assisting agencies with the management of their records from the time that those records are created.  Without effective records management, records needed to document citizens' rights, actions for which Federal officials are responsible, and the historical experience of our nation will be at risk of loss, deterioration, or destruction.  According to the NARA'strategic Plan, to minimize these risks, NARA will work in active partnership with the Administration, Federal officials, the Congress, and Federal courts to help them create, identify, appropriately schedule, and manage record material.  This will enable the Government to preserve records as long as they are needed to protect rights, ensure accountability, document the national experience, and to destroy records as soon as it is practical to do so when they are no longer needed.
NARA must work with Federal agencies to make scheduling, appraisal, and accessioning processes more effective and timely.  The challenge is how best to accomplish this component of our overall mission and identify and react to agencies with critical records management needs.
4. Information Technology Security
Since FY 2000, the Archivist has identified computer security as a material weakness in his assurance statements to the President.  While corrective steps have been taken, some actions have not been completed, and the agency continues to work on additional measures to strengthen NARA's overall information technology (IT) security posture.  The authenticity and reliability of our electronic records and information technology systems are only as good as our IT security
infrastructure.  Each year, the risks and challenges to IT security continue to evolve.  NARA must ensure the security of its data and systems or risk undermining the agency's credibility and ability to carry out its mission.
IT security becomes even more critical as NARA increases its visibility through the implementation of E-government initiatives that expand online services to the public.  The more NARA increases electronic access to its services and records, the more vulnerable the agency is to intrusions, viruses, privacy violations, fraud, and other abuses of its systems.  The risk related to IT security is endemic to all Federal agencies and has been identified by the GAO as one of its top ten high-risk challenges.
5. Expanding Public Access to Records
In a democracy, the records of its archives belong to its citizens.  NARA's challenge is to more aggressively inform and educate our customers about the services we offer and the essential evidence to which we can provide access.  NARA envisions expanding opportunities for individual citizens, educational institutions, and Federal agencies to make use of those records.  New technologies are making it easier to reach all users in their homes, schools, and workplaces.  NARA must increase partnerships with government agencies at all levels and with universities and corporate communities to take advantage of new means to bring the holdings of the National Archives to people no matter where they are located.
Mastering this challenge requires that NARA listen to its customers, and improve access to records in ways that meet customer needs and customer service standards.  This will require NARA to enhance activities such as creating comprehensive catalogs and indexes for our holdings so that users can find the records they need; make documentary material available through the Internet; improve reference service; and help Presidents at the beginning of their administrations plan for public access to their records in Presidential libraries.
6. Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation, 33CFR, Part 1228, "Disposition of Federal Records," Subpart K, "Facility Standards for Records Storage Facilities," requires all facilities that house Federal records to meet defined physical and environmental requirements by fiscal year 2009.
Specifically, in January 2000, NARA revised the regulations for public and private facilities that store Federal records to (1) improve the environment and safeguards for Federal records by incorporating stricter facility standards and advances in sprinkler technology; (2) reflect building design measures that may prevent or minimize fire and water damage to records; and (3) ensure uniform facility standards for all records centers, both public and private, that store and protect Federal records.  NARA's challenge is to ensure compliance with these regulations internally as well as by other agencies that house Federal records.
7. Preservation Needs of Records
NARA cannot provide public access to records, to support researchers needs, unless it can preserve them for as long as needed.  Providing public access to records for future generations requires that NARA assess the preservation needs of the records, provide storage that retards deterioration, and treat or duplicate and reformat records at high-risk for deterioration.  NARA must preserve paper records and motion pictures, audio recordings, videotapes, still photography, aerial photography, microfilm and other microforms, and maps and charts in a variety of formats in our holdings.  NARA must ensure that its risk management program adequately identifies and addresses all records needing preservation in a timely manner.
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow older daily and are degrading. NARA is challenged to address the following questions: are we effectively identifying those holdings that are both most at risk and most important in terms of priority. Who makes this determination, upon what criteria is it based, and is it being soundly and properly applied? Are resources and the technology available and sufficient to meet the preservation needs of these records?
8. Improving Financial Management
By inclusion under the Accountability of Tax Dollars Act of 2002, NARA is required to prepare audited financial statements in compliance with prescribed standards subject to independent audit.  This will present a challenge to NARA, especially as the Office of Management and Budget accelerates the due date for submitting consolidated audited financial statements and other performance reports into a combined Performance and Accountability Report.
The Federal Government has a stewardship obligation to prevent fraud, waste, and abuse; to use tax dollars appropriately; and to ensure financial accountability to the President, the Congress, and the American people.  Timely, accurate, and useful financial information is essential for making day-to-day operating decisions; managing the Government’s operations more efficiently, effectively, and economically; meeting the goals of the Federal financial management reform legislation (Chief Financial Officers Act); supporting results-oriented management approaches; and ensuring accountability on an ongoing basis.
In identifying improved financial performance as one of its five Government-wide initiatives, the President’s Management Agenda (PMA) stated that a clean financial audit is a basic prescription for any well-managed organization, and recognized that "most federal agencies that obtain clean audits only do so after making extraordinary, labor-intensive assaults on financial records."  Further, the PMA stated that without sound internal controls and accurate and timely financial information, it is not possible to accomplish the President’s agenda, to secure the best performance and highest measure of accountability for the American people.
The agency will be challenged in its ability to comply with the newly issued Accountability of Tax Dollars Act of 2002 much as Chief Financial Officer (CFO) agencies were challenged in the initial year following the passage of the CFO Act.
9. Physical Security
NARA must maintain adequate levels of physical security over our facilities and holdings to ensure the safety and integrity of persons and holdings within our facilities.  This is especially critical in light of the new realities that face this nation post-September 11, and the risk that our holdings may be pilfered by persons for a variety of motivations, defaced, or destroyed by fire or other natural disasters.
The Archivist has identified security of collections as a material weakness under the Financial Manager’s Financial Integrity Act (FMFIA) reporting process.   Our facilities hold records that serve to document the rights of citizens, the actions of Government officials, and the national experience.  They also hold a new class of records identified as Records of Concern (ROC).  These are records that could be useful to individuals or entities in the planning and conduct of hostile acts against this nation.
Three primary challenges facing NARA are to (1) provide quality service to our customers while instituting reasonable internal controls to prevent theft and to maintain documentation to support recovery of disenfranchised holdings and subsequent prosecution of those who would steal from NARA, (2) take every reasonable appropriate measure possible to limit access to ROC and act expeditiously in coordinating efforts with appropriate law enforcement entities as warranted and appropriate, and (3) protect and safeguard our facilities themselves and the employees who work in our facilities and to mitigate the potential for damage and destruction through both natural and deliberately precipitated acts.
10. Strengthening Human Capital
The General Accounting Office (GAO) has identified human capital as a Government-wide high risk.  Strategic human capital management should be the centerpiece of any serious change management initiative or any effort to transform the cultures of Government agencies.  Serious human capital shortfalls, however, continue to erode the ability of many agencies, and threaten the ability of others, to economically, efficiently, and effectively perform their missions.  According to GAO, the major problem is the lack of a consistent strategic approach to marshaling, managing, and maintaining the human capital needed to maximize Government performance and ensure its accountability.  People are an agency’s most important organizational asset.  An organization’s people define its character, affect its capacity to perform, and represent the knowledge base of the organization.  Agencies can improve their performance by the way that they treat and manage their people, and building commitment and accountability through involving and empowering employees.
NARA’s challenge is to adequately assess its human capital needs in order to effectively recruit, retain, and train people with the technological understanding and content knowledge that NARA needs for future success.  According to the NARA'strategic Plan, NARA must include preparation for training leaders for tomorrow in its plans.  Further, NARA must help current staff  members with traditional archival training to add skills necessary for working with new technologies.  In addition, NARA must replace valuable staff members lost to retirement with staff able to deal with records in the electronic information age. Moreover, NARA must partner with universities and professional associations to determine educational requirements for the 21st century.
Top of Page
Reporting Requirements
STATISTICAL SUMMARY OF
INVESTIGATIONS
Investigative Workload
Cases Pending
17
Complaints received this reporting period (2
proactive cases)
205
Cases opened this reporting period
9
Cases closed this reporting
period
8
Cases carried forward this reporting
period
18
Categories of
Investigations
Fraud
1
Conflict of Interest
1
Contracting Irregularities
0
Misconduct
4
Larceny (theft)
7
Torts
0
Other
5
Investigative Results
Cases pending prosecutive action
1
Cases referred for prosecutive
action
4
Cases where prosecutive action was
declined
3
Indictments and Warrants (from the previous
reporting period)
1
Convictions
3
Administrative Remedies
Employee(s) terminated
0
Employee(s) resigned in lieu of
termination
0
Employee(s) given letter of reprimand or
warnings
0
Employee(s) taking a reduction in grade in lieu of administrative action
1
Value of Funds or Property Recovered
Cash Recoveries
$0
Property Recoveries (NARA Historical Documents)
7
Requirement 5(a)(6)
LIST OF REPORTS ISSUED
Report No.
Title
Date
Questioned Costs
Un-supported Costs
Funds Put to Better Use
05-01
Review of NARA's Acquisition of Storage Management Software
03/09/2005
0
0
0
05-02
Clifton Gunderson LLP Audit of NARA's FY 2004 Consolidated Financial Statements
11/29/2004
0
0
0
05-03
Pricewaterhouse-Coopers (PwC) Audit of the National Archives Trust and Gift Funds FY 2003 Financial Statements
01/24/05
0
0
0
05-04
Pricewaterhouse-Coopers (PwC) Audit of the National Archives Revolving Fund FY 2003 Financial Statements
01/24/2005
0
0
0
05-05
Review of the Management and Operation of NARA's Help Desk
02/23/2005
0
0
0
05-06
Evaluation of NARA's Processes for Handling Personal Information Collected from the Public
03/14/2005
0
0
0
05-07
Evaluation of the National Archives Trust Representation Fund
03/18/2005
0
0
0
05-08
Evaluation of NARA's FY 2004 Management Control Program
02/10/2005
0
0
0
05-09
Audit of NARA's Intrusion Detection System (IDS)
04/01/2005
0
0
0
05-10
Review of NARA's IT Investment Management Decide Process Accomplished for the Operating System Software Upgrade Project
03/30/2005
0
0
0
AUDIT REPORT(S) WITH QUESTIONED COSTS
Category
Number of
Reports
DOLLAR VALUE
QuestionedCosts
UnsupportedCosts
A. For which no management decision has been
made by the commencement of the reporting period
3
$2,355,172
$1,117,622
B. Which were issued during the reporting
period
0
0
0
Subtotals (A + B)
3
$2,355,172
$1,117,622
C. For which a management decision has been
made during the reporting period
1
2,000,243
884,242
(i) dollar value of disallowed
cost
0
828,119
0
(ii) dollar value of costs not
disallowed
0
1,172,124
884,242
D. For which no management decision has been
made by the end of the reporting period
2
354,929
0
E. For which no management decision was made
within 6 months
2
354,929
0
Requirement 5(a)(9)
AUDITS REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
CATEGORY
NUMBER
DOLLAR VALUE
A. For which no management decision has been made
by the commencement of the reporting period
2
$26,501
B. Which were issued during the reporting
period
0
0
Subtotals (A + B)
2
$26,501
C. For which a management decision has been made
during the reporting period
0
0
(i) dollar value of recommendations that were
agreed to by management
0
0
Based on proposed management
action
0
0
Based on proposed legislative
action
0
0
(ii) dollar value of recommendations that were not
agreed to by management
0
0
D. For which no management decision has been made
by the end of the reporting period
2
$26,501
E. For which no management decision was made
within 6 months of issuance
2
$26,501
REQUIREMENT
CATEGORY
SUMMARY
5(a)(3)
Prior significant recommendations
unimplemented
None
5(a)(4)
Summary of prosecutorial referrals
None
5(a)(5)
Information or assistance refused
None
5(a)(10)
Prior audit reports unresolved
None
5(a)(11)
Significant revised management decisions
None
5(a)(12)
Significant revised management decisions with
which the OIG disagreed
None
Top of Page
PDF files require the free Adobe Reader.
More information on Adobe Acrobat PDF files is available on our Accessibility page.
Office of the Inspector General (OIG) >
Connect With Us
Blogs
Facebook
Flickr
RSS Feeds
Twitter
YouTube
More...
Information For…
Citizen Archivists
Federal Employees
Genealogists
Members of Congress
Preservation
Records Managers
The Press
Publications
Federal Register
Free Publications
Prologue Magazine
Purchase Publications
More…
Orgs & Offices
Center for Legislative Archives
Federal Records Center
Office of the Inspector General
Presidential Libraries
More…
About Us
What is the National Archives?
Doing Business with Us
Plans and Reports
Open Government
Our Plain Language Activities
I  Want To...
Get My Military Record
Plan a Research Visit
Visit the Museum
View Online Exhibits
Apply for a Grant
Participate
Attend an Event
Donate to the Archives
Work at the Archives
Volunteer at the Archives
Resources
A-Z Index
America's Founding Docs
Contact Us
En Español
FAQs
Forms
Contact Us
Accessibility
Privacy Policy
Freedom of Information Act
No FEAR Act
USA.gov
The U.S. National Archives and Records Administration
1-86-NARA-NARA or 1-866-272-6272
.